No.

IN THE
SUPREME COURT OF THE UNITED STATES

Stephen C. Shockley - PETITIONER
vs .
Bobby Lumpkin, Director TDCJ CID - RESPONDENT
PROOF OF SERVICE
I, Stephen C. Shockley, do swear or declare that on this date,
, 2021, as required by Supreme Court Rule 29 I
l 1 Augi/-g>-h
have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party in the
above proceeding or that party's counsel, and on every other person
required to be notified (served), by depositing an envelope cont­
aining the above documents in the United States mail properly add­
ressed to each of them and with first-class postage prepaid.
The name and address of the served is as follows:
AsstA+forAe^ Gevieca!
Toulew^
P-O. Sox i 2.54©
CcxfVfol Spaiion
AoS^TX 7V7U

I declare under penalty of perjury that the foregoing is true
and correct.
Executed on

11

, 2021.

Stephen C. Shockley

2661 FM 2054; Coffield
Tennessee Colony, TX
75884

I

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Stephen C. Shockley

PETITIONER

vs.
Bobby Lumpkin, Director, TDCJ CID

RESPONDENT

DECLARATION OF INMATE FILING
of Petition For Writ Of Certiorari
I am an inmate confined in an institution. Today,

/f August >
2021, I am depositing the Petition for Writ of Certiorari, Motion
For Leave To Proceed In Forma Pauperis, and Notice of Service in
the above cause into the institution's internal mail system, pro­
perly enveloped with First-Class postage prepaid by me. See Rich­
ards v. Thaler, 710 F.3d 573, 579 (5th Cir. 2013) citing Houston
v. Lack, 487 U.S. 266, 270 (1988).
I declare that the foregoing is true and correct under penalty
of perjury. See 28 U.S.C. §1746 and 18 U.S.C. §1621. Executed on
this II , day of August, 2021.

Stephen . Shockley 1793928
2661 FM 2054; Coffield
Tennessee Colony, TX 75884
Petitioner, Pro-se

